APPENDIX
A

Case: 19-50161, 10/14/2020, ID: 11857918, DktEntry: 46-1, Page 1 of 3

FILED

NOT FOR PUBLICATION

OCT 14 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

19-50161

D.C. No.
3:18-cr-03798-AJB-1

v.
MIGUEL ANGEL MENDOZA,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Southern District of California
Anthony J. Battaglia, District Judge, Presiding
Submitted October 5, 2020**
Pasadena, California
Before: KLEINFELD, HURWITZ, and BRESS, Circuit Judges.
Miguel Mendoza pleaded guilty to importation of methamphetamine and
heroin pursuant to a plea agreement containing a waiver of his right to appeal. The
district court found Mendoza ineligible for safety valve relief under § 5C1.2 of the
United States Sentencing Guidelines and imposed the mandatory minimum sentence

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 19-50161, 10/14/2020, ID: 11857918, DktEntry: 46-1, Page 2 of 3

of 120 months. We dismiss Mendoza’s appeal from that sentence in part and affirm
in part.
1.

In his plea agreement, Mendoza waived “all rights to appeal and to

collaterally attack every aspect of the conviction and sentence.” The only relevant
exception allows him to “appeal a custodial sentence above the greater of 71 months
or the statutory mandatory minimum term, if applicable.” After determining that
Mendoza did not qualify for safety valve relief, the district court imposed the
statutory mandatory minimum term.
Mendoza’s arguments as to why the appeal waiver does not apply are
unavailing. The plea agreement memorializes Mendoza’s understanding that he may
not be found eligible for safety valve relief, and, if not, “may be subject to a statutory
mandatory minimum sentence.” Nor did the district court’s comments at sentencing
invalidate the appeal waiver; the court merely indicated that if Mendoza disagreed
with the court’s statement that the appeal waiver’s exception was not triggered by
the safety valve dispute, he was free to challenge that assessment in this Court. See
United States v. Watson, 582 F.3d 974, 987-88 (9th Cir. 2009). And, neither
Mendoza’s challenge to the legality of his underlying conviction, see United States
v. Johnson, 988 F.2d 941, 943 (9th Cir. 1993), nor the district court’s safety valve
determination, see United States v. Cardenas, 405 F.3d 1046, 1048 (9th Cir. 2005),
implicate the illegal sentence exception, see United States v. Torres, 828 F.3d 1113,

2

Case: 19-50161, 10/14/2020, ID: 11857918, DktEntry: 46-1, Page 3 of 3

1125 (9th Cir. 2016).
2.

Assuming without deciding that Mendoza’s claim that he was denied

procedural due process at sentencing is not barred by the appeal waiver, see United
States v. Odachyan, 749 F.3d 798, 801-02 (9th Cir. 2014), we reject the argument.
A defendant must “be given an opportunity to assure the accurate presentation of
reliable sentencing information to the district court.” United States v. Brady, 895
F.2d 538, 542 (9th Cir. 1990) (cleaned up). Mendoza failed to show that he needed
to know how his bank records were obtained to assess their accuracy. And, the
government demonstrated that preventing the disclosure of its sources was necessary
“to keep sensitive information from the opposing party.” United States v. Thompson,
827 F.2d 1254, 1258 (9th Cir. 1987).
DISMISSED IN PART and AFFIRMED IN PART.

3

